U.S. CENSUS BUREAU

2020 Census Planning:
Research Delays and
Program Management
Challenges Threaten
Design Innovation

FINAL REPORT NO. OIG-14-003-A
DECEMBER 3, 2013



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation


FOR PUBLIC RELEASE
                                                              UNITED STATES DEPARTMENT OF COMMERCE
                                                             Office of Inspector General
                                                             Washington. O.C. 20230




December 3, 2013


MEMORANDUM FOR: John H. Thompson
                Director, U.S. ce us Bureau_
                                              0
FROM:                       Ann C. Eilers \)\l)UI   t £/eui
                            Principle Assistant Inspector General for Audit and Evaluation

SUBJECT:                    2020 Census Planning: Research Delays and Program Management
                             Challenges Threaten Design Innovation
                              Final Report No. OIG-14-003-A

We are providing the final report on our review of the Census Bureau's efforts to design the
2020 Census. This audit sought to (I) assess the implementation status of each individual
project in the 2020 Census design effort, including time frames for completion, milestones,
deliverables, and impact on the overall design program, (2) assess the bureau's plans to evaluate
each research project, including whether accurate and reliable data will be available to
determine each project's impact on design efforts, and (3) determine if governance and internal
controls are adequate to manage the design effort.

We found that, nearly 2 years into the research phase, many research projects are experiencing
delays and the research schedule is sti ll unstable and incomplete. This is due to insufficient
planning and best practices for schedule management not being followed. Further, the bureau
has delayed and restructured its field tests, which poses a risk for implementing design changes.
The Bureau cites the major impacts of the Congressional budget cut and sequestration as a
cause for the changes in content and timing of its research and testing efforts. Yet budget
reductions, continuing resolutions, and the sequestration (signed into law in August 20 I I)
should have been accounted for in their planning. We also found weaknesses in the bureau's
strategy for quality assurance and uneven implementation of program management practices.
Our report offers eight recommendations for how to resolve these issues and improve t he
bureau's efforts to design the 2020 Census.

We have received your response to our dran report. Where appropriate, we have modified
this final report based on this response. The final report will be posted on the OIG's website
pursuant to section 8L of the Inspector General Act of 1978, as amended.

In accordance with the Department Administrative Order 213-5, please provide us with an
action plan responding to all report recommendations within 60 days of the date of this
memorandum.

We thank you and your staff for the courtesies extended to us during this review. Please direct
any inquiries regarding the report to Carol Rice at (202) 482-6020.
Attachment

cc: 	   Mark Doms, Under Secretary for Economic Affairs
        Frank Vitrano, Associate Director for Decennial Census
        Timothy Trainor, Chief, Geography Division, Census
        Burton Reist, Chief, 2020 Census Research and Planning Office
        Adam Miller, Audit Liaison, Census
                                              Report In Brief                                     D E C E MB E R 3 , 2 0 1 3




Background                                 CENSUS BUREAU
The Census Bureau is directed by law
to carry out the decennial census,         2020 Census Planning: Research Delays and Program
which is mandated by the Constitu-         Management Challenges Threaten Design Innovation
tion. Decennial census data are used
to apportion seats in Congress, re-        OIG-14-003-A
draw congressional districts, and
allocate hundreds of billions of dol-
lars in federal funds for state and
                                           WHAT WE FOUND
local governments, as well as other        The current Census schedule shows research delays and lacks budget
public- and private-sector purposes.       integration. Research activities for the 2020 Census are delayed, with the schedule
The 2020 Census, though years away,
                                           undergoing major revisions almost 2 years into the R&T phase. The bureau’s ability to
is a massive undertaking that requires     manage the research program in a challenging budget environment is hampered by not
extensive planning and testing. For        integrating budget information with the research schedule.
2020, the Census Bureau plans to           Research quality assurance strategy is undeveloped. Most research teams are not
design and conduct a high-quality          incorporating the results of Census Program Evaluation and Experiments (CPEX) into
decennial operation that will cost less    2020 Census research. In addition, quality control measures are not evenly applied at the
per household on an inflation-             project level and the quality assurance practices for many projects are unclear or
adjusted basis than the 2010 Census.
                                           incomplete.
To achieve this goal, the bureau is
focusing on three primary design           Program management plans incorporate best practices, but implementation
features: (1) offering the Internet as a   is inconsistent. Implementation of decisions and program management processes has
response option, (2) targeted address      been uneven, with the bureau abandoning its efforts to develop a complex automated
canvassing, and (3) using administra-      tool for comparing relative costs and quality of alternative designs. A new governance
tive records to follow up on cases of      structure clearly defines functions of various parties and who is responsible for key
non-response. Implementing these           decisions, but the structure does not establish a policy or mechanism for documenting
changes could save the government          those decisions.
hundreds of millions of dollars.
Why We Did This Review                     WHAT WE RECOMMEND
Preparations for the 2020 Census           We recommend that the director of the Census Bureau:
must be completed early in the dec-        1. Determine when 2020 Census design decisions must be made; adhere to an activity
ade if congressionally-mandated               schedule that aligns with those decision points; and develop a critical path for the 2020
deadlines are to be met, and because          Census R&T schedule.
of the sheer size of the task: counting    2. Determine whether efforts to resolve internal data-sharing problems are progressing
millions of people and housing units.
                                              adequately.
Our audit objectives for reviewing         3. Incorporate earned value management (EVM) and budgets at the project level to
the 2020 Census research program
                                              prioritize projects as well as assess and quantify 2020 Census research program
were to (1) assess the implementa-
                                              results.
tion status of each individual project
in the 2020 Census design effort,          4. Define and adhere to a final testing schedule. Determine how iterative testing and the
including the extent of implementa-           American Community Survey can be used for the operational testing phase.
tion, time frames for completion,          5. Require R&T teams to update the Knowledge Management Database with the status of
milestones, deliverables, and impact          current CPEX recommendations and develop a bureau-wide solution for knowledge
on the overall design program, (2)            management.
assess the bureau’s plans to evaluate
each research project, including           6. Create a more structured process for R&T review by drafting guidelines that specify
whether accurate and reliable data            responsibilities of the Scientific and Methodological review panels and the research
will be available to determine each           teams.
project’s impact on design efforts,        7. Ensure research outputs are usable and on time to drive the trade-off analysis process
and (3) determine if governance and           and develop a vehicle for communicating key decisions and events.
internal controls are adequate to
                                           8. Establish a formal process to review, approve, and monitor R&T project teams’ risk
manage the design effort.
                                              registers to ensure timely identification of risks and development of mitigation and
                                              contingency plans as appropriate.
U.S. DEPARTMENT OF COMMERCE                                                                                           OFFICE OF INSPECTOR GENERAL


Contents

Introduction .......................................................................................................................................................1

Findings and Recommendations ....................................................................................................................4

   I.	       Current Census Schedule Shows Research Delays and Lacks Budget Integration ..............4

         A. 2020 Census Research Program Schedule Slippage Could Adversely Impact 

            Decennial Design Effort.....................................................................................................................4

         B. Unstable 2020 Census Field-Testing Strategy Risks Repeating Problems of 2010 

            Census ...................................................................................................................................................7

   II.	      Research Quality Assurance Strategy Is Undeveloped.............................................................10

         A. 2020 Census R&T Projects Are Not Taking Advantage of 2010 Census Research 

            Results ................................................................................................................................................ 10

         B. Scientific and Methodological Review Process Lacks Key Elements for Assessment....... 11

   III.	 Program Management Plans Incorporate Best Practices, but Implementation Is

         Inconsistent ........................................................................................................................................13

         A. Weaknesses in the Decision-Making Process Could Undermine Stakeholder

            Acceptance of Decennial Design .................................................................................................. 13

         B. Risk Management for Projects Is Incomplete and Behind Schedule ..................................... 15

Summary of Agency Response and OIG Comments............................................................................. 17

Appendix A: Objectives, Scope, and Methodology................................................................................ 18

Appendix B: Survey Methodology.............................................................................................................. 20

Appendix C: Detailed Project Information.............................................................................................. 24

Appendix D: Agency Comments................................................................................................................ 26





                                                                                                                     COVER: Detail of fisheries pediment,
                                                                                                            U.S. Department of Commerce headquarters,

                                                                                                                    by sculptor James Earle Fraser, 1934





FINAL REPORT NO. OIG-14-003-A
U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL


Introduction
The 2020 Census, though years away, is a massive undertaking that requires extensive planning
and testing. The process has already begun, building on lessons learned in 2010. Issues then
were late-stage design changes and higher-than-expected contractor expenses. Both
contributed to pushing the final cost of the 2010 Census to more than $12 billion—nearly
twice that of the 2000 Census (in nominal dollars). For 2020, the Census Bureau plans to design
and conduct a high-quality decennial operation that costs
less per household on an inflation-adjusted basis than
                                                                 Key Statutory Deadlines
Census 2010. To achieve this goal, the bureau is focusing
on three primary design features: (1) offering the Internet   March 31, 2017: Deliver Census
as a response option, (2) targeted address canvassing, and    question topics to Congress
(3) using administrative records to follow up on cases of     March 31, 2018: Deliver final
non-response.1 Implementing these changes could save          Census questions to Congress
the government hundreds of millions of dollars. For           April 1, 2020: Census Day
example, Census spent $441.7 million on canvassing
addresses for the 2010 decennial census, an operation for     December 31, 2020: Deliver state
which Census enumerators went to the door of every            population counts for House
                                                              apportionment to the President
housing unit in the United States. If Census researchers
can determine which areas require updates to their maps       March 31, 2021: Deliver
from 2010, canvassing for 2020 could target just those        redistricting data to the states
areas, at a greatly reduced cost.                             Source: 13 U.S.C. § 141

Preparations for the census must be completed early in the decade if congressionally mandated
deadlines (see box) are to be met, and because of the sheer size of the task: counting millions
of people and housing units. More than 300 million people and more than 130 million housing
units were counted in 2010. Population statistics must be delivered to the states and Congress
by set dates for determining the apportionment of seats in the U.S. House of Representatives
and whether election districts need to be realigned. From start to finish, the 2020 Census
program encompasses a 12-year lifecycle (FYs 2011–23). The bureau segregates the cycle into
four distinct phases and is currently focused on research and testing (R&T)—as shown in figure 1.
                            Figure 1. Phases of the 2020 Census Lifecycle
        FY 2011             FYs 2012–2014                    FYs 2015–2018                      FYs 2019–2023

                                                      Research                                  Readiness Testing,
         Options
                                                        and                                      Execution, and
         Analysis
                                                       Testing                                      Closeout


                                                  Operational Development and Systems
                                                                 Testing
    Source: Census Bureau



1
  The bureau is also exploring cost savings through a re-engineered field infrastructure and re-engineered IT
infrastructure.


FINAL REPORT NO. OIG-14-003-A                                                                                        1
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

Delays in the R&T phase will likely impact the next one—operational development—and
eventually jeopardize innovation because critical design decisions may be made too late to
implement successfully. Late-decade design changes may be deemed too risky, requiring the
bureau to fall back to the last decennial’s design and therefore make few cost-saving
improvements. If the 2010 Census design is used for the 2020 Census, costs are estimated to
reach $18 billion, or $120 to count each housing unit compared with $97 for counting each unit
in 2010. Timely research is therefore critical to implementing a design that costs less.

Our audit of the status of 2020 Census planning focused on two research efforts: (1) the R&T
projects led by the 2020 Research and Planning Office (20RPO) and (2) the Geographic Support
System (GSS) projects related to a targeted approach to canvassing addresses, led by the
Geography Division. As of May 2013, the bureau spent more than $128 million on the R&T
projects, toward an estimated total expenditure of $405 million. GSS is a $674 million multiyear
initiative to improve address coverage and continuously update map features in support of all
Census programs and operations. In addition to the research projects associated with testing
targeted address canvassing, GSS projects include updating the integrated MAF/TIGER database
(MTdb). That database contains the inventory of all the nation’s addresses (the Master Address
File [MAF]) and the national inventory of streets and map features (the Topologically Integrated
Geographic Encoding and Referencing [TIGER]). The R&T and GSS projects are listed in
appendix C.

Decisions about the 2020 Census design will be based on the results of the bureau’s R&T
projects, the GSS, and 2010 evaluations (referred to as the Census Program Evaluation and
Experiments [CPEX]), as well as on other bureau-wide efforts (see figure 2).

Our audit objectives for reviewing the 2020 Census research program were to (1) assess the
implementation status of each individual project in the Census 2020 design effort, including the
extent of implementation, time frames for completion, milestones, deliverables, and impact on
the overall design program, (2) assess the bureau’s plans to evaluate each research project,
including whether accurate and reliable data will be available to determine each project’s impact
on design efforts, and (3) determine if governance and internal controls are adequate to manage
the design effort.

For this review, we interviewed senior managers, 2020 Census research project managers, and
project members at the bureau’s headquarters in Suitland, Maryland; and, we reviewed relevant
financial and management documentation (see appendix A for our methodology). In addition,
we sent an online survey to all 2020 Census project managers and members with questions
related to our objectives, and received a 75 percent response (see appendix B for the survey
methodology).

We noted a number of improvements over previous decennial census planning efforts. For
example, the bureau is developing a schedule early in the decade, conducting quarterly reviews
of program management to keep internal and external stakeholders informed of progress,
implementing a risk assessment program, deploying a database to track 2010 Census
recommendations, and identifying staff skill-set gaps. Census is also using a bureau-wide IT
management approach as recommended by OIG and other oversight offices.



FINAL REPORT NO. OIG-14-003-A                                                                    2
U.S. DEPARTMENT OF COMMERCE                                                             OFFICE OF INSPECTOR GENERAL

 Figure 2. 2020 Census Research Program Feeds the 2020 Census Design Decision

                                                        CPEX
                                                Lifecycle cost: $86 million




                       20RPO                                                      Geography
                    (R&T projects)                 2020 Design                   Division (GSS)
                                                    Decision
                 Cost to date: $128 million                                   Cost to date: $225 milliona
                 Lifecycle cost: $405 million                                 Lifecycle cost: $674 million




                                                 Other: Center
                                                  for Adaptive
                                                Design, American
                                                   Community
                                                   Survey, etc.


Source: OIG analysis of Census Bureau data

a
  GSS cost to date includes actual costs through May 2013 and planned costs through September 2013.


However, we also identified significant weaknesses in the bureau’s $1.1 billion research efforts.
We found that, due to planning and project management deficiencies, many research projects
are experiencing delays and, after nearly two years, the research schedule is still unstable and
incomplete. Further, the bureau has delayed and restructured its field tests, which poses a risk
for implementing design changes. We also found weaknesses in the bureau’s strategy for quality
assurance and uneven implementation of program management practices.




FINAL REPORT NO. OIG-14-003-A                                                                                    3
U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL


Findings and Recommendations

I.	      Current Census Schedule Shows Research Delays and Lacks Budget
         Integration

      We found that 2020 Census research activities are delayed, with the schedule undergoing
      major revisions almost two years into the R&T phase.2 Further, the bureau’s ability to
      manage the research program in a challenging budget environment is hampered by not
      integrating budget information with the research schedule. Field-testing is vital to the
      research process; it is used to generate cost-and-quality metrics for assessing design
      options. However, constant changes to the scope and schedule of the 2020 Census field
      tests put evidence-based decision-making at risk.

      A.	 2020 Census Research Program Schedule Slippage Could Adversely Impact Decennial Design
          Effort

         Unstable schedule. As of                       Figure 3. Shifting Deadlines:
         March 2013, the bureau had                 The   2020 Census Design Decision
         not developed a stable and       Original
                                          Deadline:
         complete schedule for its        September                          Current Deadline:
         2020 Census research             2014                                 September 2015
         program. Between October
         2012 and March 2013, the
         bureau produced four
                                                              Delayed:
         different R&T activity                                May 2015
         schedules, and delays
         increased with each
                                          Source: OIG analysis of Census Bureau documents
         iteration. Although a final
         census design will be the result of several smaller decisions (e.g., to conduct a targeted
         address canvassing operation, implement an Internet response option, and use
         administrative records), the design decision has been delayed by a year—from
         September 2014 to September 2015 (see figure 3).

         This schedule instability exists throughout the 2020 Census research program. The
         baseline start and finish dates for over 40 percent of the approximately 2,000 research
         activities were pushed back in the March 2013 schedule from when they were originally
         scheduled in January 2013.3 These changes are significant; the average baseline shift was
         more than five months. Additionally, the bureau has already re-scoped four teams—
         adding and removing project members, changing the nature of the research, and creating

2
  Research activities for each R&T project are managed in one Master Activity Schedule. GSS activities are managed
separately by the Geography Division through a Master Information System.

3
  The project baseline is the value or condition of scheduled start and finish dates and budgeted cost against which

all future measurements of those values or conditions are compared.



FINAL REPORT NO. OIG-14-003-A                                                                                       4
U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL

        new teams. The bureau had to adjust its schedule in response to each change, and
        additional changes could further undermine the bureau’s effort to develop a complete
        and stable research schedule.

        These practices of moving project baselines and postponing deadlines are products of
        insufficient planning. Before initiating the research phase, the bureau’s management did
        not determine when stakeholders would need the research findings in order to make
        significant changes in time for the 2020 Census. In other words, the bureau started
        research without identifying when the research needed to be complete to make a
        decision. For example, researching the impact that Internet self-response would have on
        the need for paper questionnaires must be completed prior to ordering those paper
        questionnaires and determining the number of facilities required to process them. The
        bureau is currently trying to establish the dates of these and other key decision points,
        as well as associated deliverables and milestones, but not identifying them in advance has
        led to an unstable schedule. Missing and shifting project and key decision deadlines make
        it impossible to assess how much schedule slippage is occurring, potentially undermining
        the next decennial effort. Last decade, OIG recommended that the Census Bureau
        develop its 2020 Census schedule earlier in the decade than it did in the 2010 decennial
        lifecycle.4 The bureau is taking a positive step by developing the schedule early in the
        decade; however, its efforts to date pose a risk to achieving significant 2020 Census
        cost-savings.

        Re-baselining masks delays. We found that the bureau’s practice of altering baselines
        in schedules—called re-baselining—obfuscates delays to project activities. In the January
        2013 R&T schedule, 28 percent of research activities were delayed at least 30 days, and
        9 percent were delayed at least 180 days. The March schedule showed improvement at
        first glance: less than 10 percent of activities were delayed by 30 days. But because
        baselines of the project were shifted, that was not the true picture. Using the baselines
        from January’s schedule, more than 40 percent of
        March’s activities were delayed at least 30 days, and 17      Figure 4. Research and
        percent were delayed at least 180 days (see figure 4).        Testing Activity Delays
        The R&T program started in the first quarter of FY
        2012; it is a major concern to see extensive delays just
        over one year later. As with the R&T schedule, the
        current phase of the GSS schedule also has delays: just
        one month into the program, 13 percent of GSS
        activities show delays of at least 30 days. For details on
        the project delays, see appendix C.
                                                                                       30-Day Delays
        As we recommended in 2009, critical path
                                                                                       180-Day Delays
        management—a process to monitor the progress of                                On Schedule
        critical project activities and to guide decision-making
        for the reallocation of resources when activities                     Source: OIG from Census data

4
  U.S. Department of Commerce, Office of Inspector General, August 2009. 2010 Census: First Quarterly Report to
Congress, report no. OIG-1791-I; idem, June 27, 2011. Census 2010: Final Report to Congress, report no. OIG-11-
030-I.


FINAL REPORT NO. OIG-14-003-A                                                                                     5
U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL

        inevitably vary from the planned schedule—could help mitigate delays by ensuring that
        the essential components of each project remain on schedule.5 However, the bureau has
        not fully implemented a critical path for its R&T project schedule. According to one
        bureau official, some project managers have identified critical paths within their research
        programs, but most are not taking advantage of critical paths as a management tool. A
        bureau official stated that there are plans to revisit critical path management over the
        next several months. Timely implementation could reduce the risks associated with the
        widespread schedule delays.

        Our survey of GSS and R&T project staff confirms these scheduling concerns: 23
        percent of R&T staff and 48 percent of GSS staff reported that their projects were
        behind schedule as of March 2013. Furthermore, while insufficient planning and
        scheduling are the principal drivers of the delays, R&T and GSS staff members face other
        challenges. Our survey indicates that the bureau may not have allocated staff sufficient
        time for projects: more than 45 percent of GSS staff and 31 percent of R&T staff
        reported that they have less time than is appropriate for them to complete their project
        activities. The bureau’s practice of shifting baselines and not implementing critical path
        management are risks for 2020 research.

        Data access issues. Another impediment to projects’ completion is the staff’s difficulty
        obtaining data that is necessary for their research. Half of R&T and GSS staff surveyed
        reported that it is a challenge to get access to other census-related data. Of these 115
        respondents, 26 added comments explaining how data access issues delay their work.
        Some of the reasons cited include: the process for accessing internal data requires too
        many steps and extensive paperwork, signatures for approval can take a long time to
        identify and acquire, and once access is granted, it can be unexpectedly revoked.
        Officials in the Deputy Director’s and Policy offices agreed that multiple, lengthy
        processes have delayed bureau employees from accessing data and that a new process is
        still under development and has yet to reach a stable solution.

        Lack of integrated schedule and budget. Last decade, OIG recommended that the
        Census Bureau should integrate cost and schedule activities to allow managers to better
        track the status of available funds, and forecast impending under-runs and overruns so
        that funds can be reallocated promptly.6 In response, the bureau planned to incorporate
        earned value management (EVM), a process that combines measures of a project’s
        schedule and cost to forecast performance problems.7 As of March 2013 Census had
        not incorporated EVM into its activity schedules, limiting its ability to make decisions
        based on objective data. In addition, GSS has a program-level budget but not individual
        budgets for its research projects. GSS projects have plans and schedules, but this
        information is not integrated with the budget. As a result, GSS is unable to identify the

5
  OIG, 2010 Census: First Quarterly Report to Congress.
6
  Ibid.
7
  Earned value management (EVM) allows project managers to forecast cost or schedule overruns at an early stage
in a project, and to monitor the project plan, actual work, and work-completed values to determine if a project is
on track. EVM shows how much of the budget and time should have been spent, with regard to the amount of
work done so far.


FINAL REPORT NO. OIG-14-003-A                                                                                        6
U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL

        actual costs of individual research projects. This is a concern for performance
        management; GSS management will be unable to detect if a particular project has
        significant cost overruns. Because of the bureau’s budget and time constraints,
        management must be able to recognize at-risk projects by adopting EVM, which would
        provide valid, timely, accurate, and auditable performance information on which to base
        project management decisions.

                                                    B. Unstable 2020 Census Field-Testing Strategy
 “A small number of large tests                 Risks Repeating Problems of 2010 Census
 create intolerable risks for the                   One-half of originally scheduled field tests
 Census Bureau. … We are                            canceled. The Office of Management and Budget
 committing to a faster cycling of                  (OMB) states that agencies can use field tests
                                                    when improving survey procedures and
 ideas and testing, relying on a lot of             questionnaires to provide quantifiable data for
 small tests versus a small number of               decision makers. The bureau has chosen to use
 large expensive tests.”                            field tests to inform its research because it is
                                                    important to test potentially improved processes
 Robert Groves, Census Bureau director              in the field under conditions representative of
  (July 18, 2012, testimony)                        decennial operations (for example, verifying a new
                                                    address in near real-time and associating the
                                                    address with a Census map location—such as
                                                    latitude and longitude coordinates). We found
          that plans for these field tests are in flux. The bureau canceled 13 of its 25 initially
          scheduled field tests of varying sizes. Nine small cancelled tests were incorporated into
          the development of the automated field data collection device. Then the Bureau added
          two tests. Next, the Bureau brought back two cancelled tests as ongoing surveys instead
          of field tests. Finally, another cancelled test was re-scoped to be a focus group. Bureau
          officials defend the changes and cancellations, citing improved designs through test
          restructuring based on input from the Research and Methodology (R&M) Directorate,
          20RPO, the Executive Steering Committee, and the National Academy of Sciences. The
          Bureau also cites the fact that the original testing schedule was developed three years
          ago in the midst of the 2010 Census. However, canceling so many tests removes
          opportunities to inform research and other field tests, and the instability of the testing
          strategy makes adequate planning difficult.

        Field tests delayed. Frequent changes to schedules and delays to testing threaten the
        teams’ ability to incorporate test results into subsequent research and FY 2014 design
        decisions. During our audit, the field test schedule was pushed back three times; in total,
        testing has been delayed by a year and a half and is now scheduled to conclude in FY
        2016. The bureau originally planned early and iterative testing to allow more time to
        follow up on and retest refined designs. For example, the R&T project charged with
        improving and reducing doorstep visits to non-responding households had planned
        iterative tests. But delaying the 2013 test to January 2014 diminishes its ability to
        conduct a second test in time to revise designs by the September 2015 deadline. If the



FINAL REPORT NO. OIG-14-003-A                                                                        7
U.S. DEPARTMENT OF COMMERCE                                                  OFFICE OF INSPECTOR GENERAL

        tests yield surprising results or inconclusive data, the bureau may not have time for
        follow-up tests or a sufficient response.

        No specific plans to use the American Community Survey in 2020 testing. To
        increase opportunities for testing, both the National Academy of Sciences and OIG have
        recommended using the American Community Survey (ACS) as a testing mechanism8.
        OIG recommended that the bureau increase the sample size of the ACS (or other
        surveys) to use as a test environment for smaller tests of new processes, procedures,
        and systems. Although it employs a more complex questionnaire than the short-form
        census, the ACS is an important tool for census-testing because of its national scale, use
        of multiple data-collection modes, and overlap in questionnaire content.

        Specific 2020 Census tests are currently not planned for ACS, although some ACS
        activities will help inform the 2020 Census, such as the recently implemented Internet-
        response option. Bureau officials have given conflicting explanations for why the ACS is
        not being used for specific 2020 testing. One stated reason is that teams are not
        cooperating with the bureau’s “new” approach of using more, smaller-scale field tests
        and the ACS as a testing platform. The official leading ACS operations, however, said
        that limitations to the ACS test environment have pushed off 2020 testing until January
        2015, which leaves only 8 months for any such testing to inform the September 2015
        design decision. After the completion of our fieldwork, the Bureau designed and
        scheduled one test that uses existing ACS systems and whose results will inform the
        2014 site test. Also, according to the bureau, the IT directorate is implementing systems
        in ACS first before expanding them for the 2020 census. Management should use the
        operational testing phase to ensure the technical solution is sufficiently scoped for the
        much larger decennial census.

        Testing strategy falls short. Many research project members are concerned about
        adequately developing and testing key procedures and products because the testing
        strategy lacks clarity and stability. In our survey of 2020 staff, only 28 percent of project
        personnel agreed that the tests were clearly defined, and only 35 percent of R&T survey
        respondents agreed that the field tests were appropriate to answer their research
        questions. At Census Integration and Information Group meetings of division- and
        program-level bureau management, officials have repeatedly stated a pressing need to
        redefine the tests. If more effective testing strategy is not devised and stabilized, and the
        testing is not adequately integrated into operations, the bureau will have to make
        decisions without clear evidence of cost-saving solutions that would maintain or
        improve accuracy.




8
 National Research Council Panel to Review the 2010 Census, 2011. Change and the 2020 Census: Not Whether but
How. Washington, D.C.: National Academies Press; OIG, Census 2010: Final Report to Congress.


FINAL REPORT NO. OIG-14-003-A                                                                               8
U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL


Recommendations
    We recommend that the Director of the Census Bureau:

    1.	 Determine when 2020 Census design decisions must be made; adhere to an activity
        schedule that aligns with those decision points; and develop a critical path for the 2020
        Census R&T schedule.

    2.	 Determine whether efforts to resolve internal data-sharing problems are progressing
        adequately, with a view toward improving the timeliness of data exchanges among
        bureau units.

    3.	 Incorporate earned value management (EVM) and budgets at the project level to
        prioritize projects as well as assess and quantify 2020 Census research program
        successes and failures.

    4.	 Define and adhere to a final testing schedule. Determine how iterative testing and the
        ACS can be used for the operational testing phase and ensure that the technologies and
        sample designs support adequate testing of the procedures, data, and other approaches
        being used.




FINAL REPORT NO. OIG-14-003-A                                                                       9
U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL


II.      Research Quality Assurance Strategy Is Undeveloped

      Prior to the 2020 R&T phase, 100 CPEX studies were devised to evaluate the 2010 Census
      and inform planning and testing for the 2020 Census. These CPEX studies cost nearly $86
      million during FYs 2009–12. We found that most of the research teams are not
      incorporating CPEX results into 2020 Census research. In addition, quality control
      measures are not evenly applied at the project level and the quality assurance practices for
      many projects are unclear or incomplete. The review panel process continues to evolve but
      needs protocols to ensure that panels provide informed recommendations and stakeholders
      are aware when the panel approves or does not approve of teams’ work.

      A. 2020 Census R&T Projects Are Not Taking Advantage of 2010 Census Research Results

         The Census Bureau developed the Knowledge Management Database, a tool that
         catalogues CPEX recommendations, to incorporate prior research into the 2020
         Census planning efforts, which in turn could
         inform and improve other surveys and                   Figure 5. Leveraging the
         activities throughout the bureau. CPEX                $86 Million CPEX Results
         recommendations in the Knowledge
                                                          Considered 87
         Management Database are assigned to
                                                          for use
         relevant research teams for subsequent
         investigation. Once a recommendation is
         assigned to a team, the team decides
         whether to consider, dismiss, or place the
         recommendation on hold.9 However, as of                                        320
         March 2013, only 21 percent of the 407
         currently applicable CPEX                          Source: OIG analysis of Census Bureau data
         recommendations were being considered
         for use by R&T teams (see figure 5). The remaining recommendations were dismissed
         or the teams failed to provide feedback on them. Our survey also found that only 41
         percent of R&T project staff members thought the CPEX studies were informative to
         their projects, and only 7 percent considered the results critical. If the bureau fails to
         take advantage of previous studies, research teams could waste time and money on
         replicating earlier efforts and miss the opportunity to learn from past mistakes.

         The bureau has not used CPEX research for several reasons. First, 93 percent of the
         final CPEX recommendations were issued after most R&T projects started in November
         and December of 2011. OIG previously noted that CPEX reports were significantly
         delayed and cautioned that these delays “could adversely impact the bureau’s efforts to
         improve the decennial census design.”10 Now that the lifecycle is in the R&T phase, the
         effect of the delays is clear: teams did not receive CPEX results early enough to take

9
  Recommendations “on hold” are applicable to a later phase of the lifecycle; thus, they are not assigned to current
research teams. For this reason, “on-hold” recommendations are not included in OIG’s analysis.
10
   U.S. Department of Commerce, Office of Inspector General, April 5, 2012. 2020 Census Planning: Delays with
2010 Census Research Studies May Adversely Impact the 2020 Decennial Census, report no. OIG-12-023-I.


FINAL REPORT NO. OIG-14-003-A                                                                                     10
U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL

         advantage of their findings in designing their projects. Second, the Knowledge
         Management Database is a new tool for the bureau and took considerable effort to plan
         and populate. In October 2012, a full year after the start of the R&T phase, less than 50
         percent of the available CPEX recommendations had been assigned to project teams (all
         were assigned by March 2013). In order to incorporate the findings from the CPEX
         studies into their projects, teams need to have the results before designing their own
         studies and research plans.

     B. Scientific and Methodological Review Process Lacks Key Elements for Assessment

         To ensure more rigorous quality assurance for 2020 Census research, the bureau
         instituted Scientific and Methodological review panels, under the Research and
         Methodology directorate, to evaluate scientific validity and provide guidance to research
         teams.11 The review panels evaluate the soundness of a project’s methodology in a
         process modeled roughly on committees that oversee Ph.D. dissertations. Panel
         members serve as mentors to research teams and provide direction and expertise. The
         panelists are tasked with evaluating research designs; providing critical feedback and
         guidance to the research teams; and assessing the validity of any findings, conclusions,
         and recommendations. However, limited guidance on the review panel process has left
         R&T teams struggling in areas the panels are designed to assist.

         In addition, while 12 of the 13 project teams with topics that warranted scientific
         evaluation have prepared study plans, all of the study plans remain in draft form and are
         incomplete.12 Of the 12 study plans, 7 plans did not establish milestones or deliverables,
         2 did not specify database requirements, and 6 did not adequately describe
         risks/limitations. Further, only 2 provided sufficient information on the analysis variables
         and, as a result, all study plans’ evaluated elements were incomplete.

         Our survey results also indicate that research teams are struggling to ensure the quality
         of their research. Over half of R&T project staff members we surveyed believe that the
         research methods or approach pose a challenge to their project. While project
         managers and members agree that this is a challenge, they disagree on many other
         obstacles—such as quality assurance procedures for their research projects (see table
         1).




11
   The Scientific and Methodological review panels are led by a senior scientist from R&M, who can be the
associate director (chief scientist) or assistant director of R&M, an incumbent of a senior technical position within
the R&M directorate, the chief demographer, the chief economist, or anyone designated by the chief scientist.
12
   The 2020 R&T study plans document elements required by Census research standards, such as: study
assumptions, methodology, data requirements, division and staff responsibilities, milestones, and study risks and
limitations.


FINAL REPORT NO. OIG-14-003-A                                                                                       11
U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL

                Table 1. Responses of R&T Project Managers and Members
                             on Research Quality Assurance
                                                   Project        Project        Difference
Issue                                              Managers       Members        (in percentage
                                                   (% of total)   (% of total)   points)
Agree their project has clearly defined
                                                           84          59               25
objectives
Agree there are clear processes to
                                                           62          39               23
ensure valid and reliable research results
Agree their project follows specified
                                                           66          43               23
quality control processes
Able to identify any quality control
measure to ensure valid and reliable                       74          51               23
research results
Source: OIG survey of R&T and GSS research project staff

        The review panel process is evolving, and R&M management is encouraging panel
        members to work more proactively with R&T teams. The R&M directorate reports
        internally that panel leads meet biweekly to discuss the progress and problems facing
        the teams. However, we found no guidance for the panels beyond a brief description of
        their structure and primary tasks. This single-page document specifies panel size,
        qualifications for panel leads and members, and a high-level overview of the panels’
        roles, but does not specify panel and team responsibilities. The process also lacks a
        standard protocol for how to record interactions between panels and teams, and to
        document panel concerns, recommendations, and approval of the research.

Recommendations
    We recommend that the Director of the Census Bureau:

    5.	 Require R&T teams to update the Knowledge Management Database with the status of
        current CPEX recommendations and move toward developing a bureau-wide solution
        for knowledge management (that is, one that can serve 2020 Census research as well as
        other surveys and activities throughout the bureau).

    6.	 Create a more structured process for R&T review by drafting guidelines that specify
        responsibilities of the Scientific and Methodological review panels and the research
        teams; requirements for documenting interaction between research teams and panels;
        and an approval process that includes documentation of the panel’s findings,
        recommendations, and endorsements of the team’s work at key stages of the research.




FINAL REPORT NO. OIG-14-003-A                                                                   12
U.S. DEPARTMENT OF COMMERCE                                               OFFICE OF INSPECTOR GENERAL


III.	      Program Management Plans Incorporate Best Practices, but Implementation
           Is Inconsistent

        We found that implementation of decisions and program management processes has been
        uneven, with the bureau abandoning its efforts to develop a complex automated tool for
        comparing relative costs and quality of alternative designs. A new governance structure
        clearly defines functions of various parties and who is responsible for key decisions, but the
        structure does not establish a policy or mechanism for documenting those decisions.

        A.	 Weaknesses in the Decision-Making Process Could Undermine Stakeholder Acceptance of
            Decennial Design

           Automated trade-off analysis tool abandoned. The Lifecycle and Budget Planning
           group is tasked with conducting a cost/quality assessment to select the preliminary
           design alternative to meet the goal of implementing a 2020 Census at a lower cost per
           housing unit than 2010, while still maintaining high-quality enumeration. Figure 6
           illustrates how research results are used to make design decisions. The bureau
           commissioned a contractor to develop an automated trade-off analysis tool that would
           enable decision makers to compare the cost and quality associated with different design
           options. However, the complex automated model was consistently behind schedule, and
           the contractor delivered an unfinished product. The tool incorporates fewer steps of
           the actual census process than originally planned and has fewer and more simplified
           capabilities. For example, the cost per contact is specified as the same throughout the
           country, regardless of location or type of contact (in-person, phone call, etc.). The
           automated tool has limited functionality; it cannot do much beyond assessing the effects
           of different design decisions on self-response rates.

                    Figure 6. How Research Feeds into 2020 Census Design

    Primary Research Areas                    Develop Design Options                 Design Decisions

 1) Using administrative                                                      Little      Some         All
 records for non-response
                                              The Lifecycle Budget and        Postal      Mixed-    All
                                             Planning Group conducts a        Service     Mode      Electronic
 2) Internet response option
                                             Cost/Quality Assessment of
 3) Targeted address                             the research results         Full       Targeted    None
 canvassing


Source: OIG analysis of Census information

           When it became evident that the contractor would not finish the complex automated
           tool before the task order ended, the team worked with the contractor to develop an
           alternative trade-off analysis tool called a fish-bone diagram. Unlike the complex
           automated model, the fishbone does not provide a numeric output given a set
           combination of design decisions. Instead, the manual diagram illustrates cause-and-effect


FINAL REPORT NO. OIG-14-003-A                                                                                    13
U.S. DEPARTMENT OF COMMERCE                                              OFFICE OF INSPECTOR GENERAL

           relationships between the various components that drive cost and quality of the 2020
           Census and then assigns weights to these factors to define their relative impact. With
           much of the diagram incomplete and with questions about finishing the model
           unanswered, there are concerns about the fishbone diagram’s utility as a decision-
           making tool. As of late March 2013, the team developing the diagram had not yet
           determined how the model will incorporate the weights, costs, and interactions of
           different design options to deliver a clear trade-off analysis to decision makers. Decision
           makers will be handicapped in their attempt to make design changes without clear
           assessments of the risks associated with each design option, and of how each option
           affects the cost and quality of the 2020 Census.

           Governance groups not meeting. The Census Integration and Information Group
           (CIIG) is an advisory group scheduled to meet biweekly to exchange 2020 Census
           planning information about project status and metrics, identify and vet issues, develop
           solutions, and provide recommendations to the 20RPO Chief. It was formerly called the
           Census Integration Group (CIG) and chaired by the Decennial Management Division
           Chief, and was the primary governance group for the 2010 Census. It initially performed
           that function for the 2020 Census as well, but now the CIIG’s primary purpose is to
           serve as an information exchange for programs and projects for the planning phase (and
           throughout the lifecycle) across divisions working on the program. Since June 11, 2012,
           however, the bureau has canceled 19 of 32 scheduled CIIG meetings, thereby forfeiting
           valuable opportunities to address issues related to the progress of the R&T phase.

           Under the February 2013 Governance Management plan, the 20RPO chief and associate
           director for the 2020 Census are responsible for program governance decisions for the
           R&T phase, and are advised by the decennial leadership group (DLG). The DLG’s
           purpose is to advise the associate director on critical 2020 program decisions, ensure
           high-level program integration across divisions and functional teams, and resolve issues
           escalated from the 2020 program managers through the 20RPO chief. Although
           scheduled to meet biweekly, the DLG held its first meeting on March 25, 2013, over
           one year after the start of the R&T phase. As of May 22, 2013, the DLG has met five
           times.

           Decision documentation remains undefined. For the 2010 Census, the bureau
           produced the “Decision Memorandum Series,” which was supposed to communicate
           issues and decisions pertaining to decennial operations. However, a similar decision-
           documenting mechanism for the 2020 Census has yet to be identified. We found the
           2010 Census memoranda series lacking, with no documented policies on what decisions
           or events required a memorandum or what the content should be.13 As we stated in
           our August 2009 report, the absence of a systematically documented set of decisions
           reduces the transparency of decision-making and prevents stakeholders from being
           informed of potentially significant trade-offs and changes in the bureau’s approach. A
           mechanism to document 2020 Census decisions is needed.



13
     OIG, 2010 Census: First Quarterly Report to Congress.


FINAL REPORT NO. OIG-14-003-A                                                                        14
U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL

     B. Risk Management for Projects Is Incomplete and Behind Schedule

        As part of their program management effort, the 2020 Census directorate developed a
        risk management plan to ensure that projects are delivered on time, within budget, and
        with the promised functionality. In previous work, OIG has recommended that risk
        management begin at the outset of the decennial census lifecycle, rather than just before
        field operations (which defined risk management for the 2010 effort), including finalizing
        contingency plans prior to the start of decennial operations. The bureau’s 2020 Census
        risk management plan establishes processes to identify and analyze risks, populate a risk
        register, develop mitigation and contingency plans, assess mitigation activities, and
        periodically reassess the risks as needed.

        R&T risk activities incomplete. In November 2012, GAO found that while the 2020
        directorate had drafted mitigation and contingency plans for the risks identified at
        program-level, not all R&T project teams had developed mitigation and contingency
        plans for risks identified under the criteria established in 20RPO’s risk management
        plan.14 As of February 12, 2013, no project teams had completed their risk registers,
        mitigation, and/or contingency plans. Of the 120 risks identified by project teams as
        requiring plans, only 53 risks had completed mitigation and/or contingency plans. Sixty-
        seven risks had one or both plans missing (see figure 7).
                                     Figure 7. Incomplete Risk Activities
                          22 risks            • Missing Contingency & Mitigation Plans

                          29 risks            • Missing Contingency Plans

                          16 risks            • Missing Mitigation Plans


                         Source: OIG analysis of Census Bureau data

        In addition, 84 risks with mitigation plans did not always meet the criteria for risk
        management. For example, some lacked discrete mitigation steps. And 40 risks requiring
        mitigation, contingency-planning, or both, did not identify a “handling” option.15 Those
        risks without handling options had been identified for an average of 264 days. Finally, 15
        risks transferred to other projects or stakeholders better situated to mitigate the risk
        were not accepted by the new risk owners.

        A lackluster risk program reduces the bureau’s ability to plan for and respond to
        negative events. One reason for the problems implementing the risk program is the
        resistance of R&T project staff. Program managers told us that Census employees
        consider the increased documentation required to be produced to program
        management to be burdensome and time-consuming. Our survey of R&T and GSS

14
   U.S. Government Accountability Office, November 7, 2012. 2020 Census: Initial Research Milestones Generally Met

but Plans Needed to Mitigate Highest Risks, report no. 13-53.

15
   The handling option describes the technique to manage the risk: assumption, control, transfer, avoidance, or

monitoring.



FINAL REPORT NO. OIG-14-003-A                                                                                    15
U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL

        project teams supports this assessment; several respondents complained that program
        management processes, including risk management, were tedious and had not been
        adequately explained to project members.

        Census managers are aware of the issues and delays in implementing its risk
        management process. An internal review identified a number of issues, including the lack
        of deliverable due dates and other key milestones, defined roles and responsibilities,
        identification of initial risks, initial risk rating, mitigation-handling options, contingency
        plans, regular risk reviews, and production of metrics. The internal review
        recommended that directors of the 2020 Census add resources to the 20RPO risk
        management team in order to increase support to the project teams, and to improve
        communication and effectiveness. Finally, it recommended selecting and implementing a
        risk management tool that integrates with the 2020 Census schedule to improve the
        efficiency of risk management, and to comply with best practices. Similar to the internal
        review, we recommend that management actively monitor progress of risk activities,
        such as the completion of the required plans, and ensure that all project managers and
        members complete training.

Recommendations
    We recommend that the Director of the Census Bureau:

    7.	 Ensure research outputs are usable and on time to drive the trade-off analysis process
        and develop a vehicle for communicating key decisions and events, as well as a policy for
        determining which decisions and events should be communicated and what the content
        should be.

    8.	 Establish a formal process to review, approve, and monitor R&T project teams’ risk
        registers to ensure timely identification of risks and development of mitigation and
        contingency plans as appropriate. The program should provide for periodic reviews to
        ensure registers are updated on a comprehensive and timely basis.




FINAL REPORT NO. OIG-14-003-A                                                                       16
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and
OIG Comments
In response to our draft report, the Census Bureau director agreed with all of our
recommendations, and reports that the bureau has already taken initial steps to ensure timely
implementation to address them. The bureau also stated that its plans and schedules were
created relative to its budget request and that once its level of funding was reduced, it had to
make changes to the content and timing of its research and testing efforts. We have included
the Census Bureau’s formal response as appendix D. The Census bureau also provided
technical comments to the draft report and we made changes to the final report, where
appropriate.

We look forward to receiving the Census Bureau’s action plan within 60 calendar days of the
date of this report.




FINAL REPORT NO. OIG-14-003-A                                                                      17
U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and Methodology

To conduct this audit, we sought to (1) assess the implementation status of each project in the
Census 2020 redesign effort, including the extent of implementation, time frames for
completion, milestones, deliverables, and impact on the overall redesign program, (2) assess the
Census Bureau’s plans to evaluate each project, including whether accurate and reliable data
will be available to determine each project’s impact on redesign efforts, and (3) determine if
2020 Census governance and internal controls are adequate to manage the redesign effort.

Our methodology included interviewing senior bureau managers and 2020 research project
managers and members. In addition, we reviewed documentation related to our objectives for
the period FYs 2011–13 (unless otherwise noted). Specifically, we interviewed 2020 Census
senior managers and research project managers to discuss issues related to research
implementation, including schedule, budget, and the incorporation of prior research; the
evaluation of 2020 research; and governance and internal controls, including risk management.

We also reviewed the research program documents, including:
    	 budget data for 2020 Census projects to assess research costs;
    	 the Knowledge Management Database to assess whether 2020 project teams
       incorporated Census Program Evaluation and Experiments (CPEX) recommendations
       into their research;
    	 policies, procedures, and guidelines related to research evaluation and peer review;
    	 policies and documentation related to project risk registers;
    	 project and study plans; and
    	 plans and documentation related to field testing.

We obtained an understanding of internal controls and practices by
    	 reviewing applicable laws and regulations, including Title 13 of the U.S. Code;
    	 interviewing 2020 Census management representatives to gain an understanding of
       program management and risk management processes; and
    	 reviewing relevant policies, procedures and guidelines.

We tested the reliability of the data that the Census Bureau provided by analyzing the data for
irregularities and logical inconsistencies. We (1) looked for obvious errors in accuracy and
completeness, (2) interviewed bureau officials who were knowledgeable about the data, and (3)
directly tested against supporting documentation. We did not directly test the IT systems. No
discrepancies were noted; thus, we consider the data sufficiently reliable for use in our audit.

Finally, we conducted an online survey of all 2020 Census project managers and members to
solicit their feedback on 2020 Census research operations (see appendix B for a full description
of the survey methodology).



FINAL REPORT NO. OIG-14-003-A                                                                   18
U.S. DEPARTMENT OF COMMERCE                                      OFFICE OF INSPECTOR GENERAL

We conducted this audit from August 2012 through May 2013. The audit was conducted under
the authority of the Inspector General Act of 1978, as amended, and Department Organization
Order 10-13, dated August 31, 2006, at the Department’s offices in the Washington, DC,
metropolitan area. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.




FINAL REPORT NO. OIG-14-003-A                                                             19
U.S. DEPARTMENT OF COMMERCE                                        OFFICE OF INSPECTOR GENERAL


Appendix B: Survey Methodology

To complete our review, we conducted an online survey of all research and testing (R&T) and
Geographic Support Systems (GSS) project managers and members. We asked questions
related to our three objectives: governance and internal controls, implementation status of
each project, and research evaluation. Overall, we received surveys from 262 respondents,
yielding a response rate of 75 percent.
The response rates by project (GSS/R&T) were very similar, reducing the risk of nonresponse
bias caused by departmental differences.

                       Table B-1: OIG Survey Response Rates by Project
                               Number of           Population                  Response
        Project
                               Responses              Size                     Rate (%)
          GSS                      67                      90                      74
          R&T                     195                     261                      75
Source: OIG

Answering all questions was mandatory; submitting additional comments was optional. We used
survey logic to route respondents to a different question path based on role (project member
or project manager) and answer response (follow-up questions were asked only when
relevant).
Our population was based on the bureau’s rosters from January 2013, but those rosters
changed as teams were restructured. To adjust, respondents found to be in-scope but not part
of the original rosters were added to the universe and included in the list of respondents, and
respondents and roster members found to be out-of-scope were removed from the universe
and list of respondents.
Respondents could complete the survey multiple times—one survey per project. Nine
respondents did so. They completed a combined total of 20 surveys, producing 11 “legitimate”
duplicates. (Seven of the nine respondents completed 2 surveys each, and two of the nine
respondents completed 3 surveys each.) The legitimate multiple responses were excluded for
the purpose of calculating response rates but were included for the purpose of analyzing survey
results. The 262 unique respondents produced 273 total survey responses. Illegitimate duplicate
surveys from the same respondent about the same project were removed.
To refine the survey instrument, we interviewed bureau staff across ranks and teams and then
pretested the questionnaire. Based on our pretesting, we modified the questionnaire to reduce
the burden on respondents, target the most relevant information, and reduce question bias.
We provided a copy of the questionnaire to Census Bureau management on January 28, 2013,
to ensure that our questions were not misleading or off-topic. We e-mailed a SurveyMonkey
link to Census 2020 design staff on January 29, 2013, and closed the survey to respondents on
February 22, 2013, allowing 3 weeks to complete the questionnaire.



FINAL REPORT NO. OIG-14-003-A                                                                 20
U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL

Our survey has several limitations. The constantly changing nature of the teams and the
associated difficulties in defining the universe and identifying team role could introduce bias to
our results. Also, many survey questions offered response options of “Not applicable” and
“Don’t know.” We always excluded “Not applicable” responses for analysis. When the “Don’t
know” response option was relevant, we included it. When this response option would have
skewed results and we wanted to report a breakdown of respondents who were familiar
enough with a topic to answer the question, we excluded those answering “Don’t know.”
Survey questions are reprinted below.

                                       Survey Questions
    1.	 Name
    2.	 E-mail address
    3.	 How many R&T and GSS projects do you work on as a team lead or member?
    4.	 How many non-R&T/GSS projects do you work on as a team lead or member?
    5.	 Please select your primary Research & Testing (R&T) or Geographic Support System
        (GSS) project.
    6.	 Please indicate your level of agreement or disagreement with the following statements
        about your project role:
            a.	 I have sufficient time to complete my personal project responsibilities on
                schedule.
            b.	 My skills are appropriate for my work on this project.
    7.	 Are you a team lead, project manager, or team member for this project?
    8.	 How will the results of your project feed into the 2020 Census design, and which key
        decisions will they inform?
    9.	 Who decides whether to incorporate your project results into the 2020 Census design
        and what criteria do they use (e.g., Trade-Off Analysis Tool)?
    10. Please list the most critical activity (milestone/deliverable) for your project and explain
        how it contributes to project success.
    11. Please assess the current progress of this activity (milestone/deliverable).
    12. Please identify the primary stakeholders who will use your project results.
    13. Please indicate your level of agreement or disagreement with the following statements:
            a.	 My stakeholders helped define the objectives of my project.
            b.	 My stakeholders helped set my project’s priorities.
            c.	 Our work will meet the needs of our stakeholders.
            d.	 There is a protocol for handling requirement conflicts.
            e.	 Responsibility for key project decisions is clearly defined.




FINAL REPORT NO. OIG-14-003-A                                                                        21
U.S. DEPARTMENT OF COMMERCE                                        OFFICE OF INSPECTOR GENERAL

    14. Please assess the impact of the following issues on your project:
            a.	 Coordination within project team
            b.	 Methodological difficulties
            c.	 IT problems
            d.	 Obtaining timely access to data
            e.	 Data quality
            f.	 Management review process
    15. Please assess the impact of other Census projects on your project:
            a.	 Coordination with other R&T and GSS teams
            b.	 Coordination with non-R&T and GSS Census Bureau teams (e.g. Center for
                Adaptive Design “CAD”)
            c.	 Balancing responsibilities for other projects
    16. To what extent are the following resources appropriately allocated for your project?
            a.	 Staffing levels
            b.	 Budget
            c.	 Time to complete activities
            d.	 Contract support
    17. Please indicate your level of agreement or disagreement with the following statements:
            a.	 Team members understand their responsibilities.
            b.	 Responsibilities are fairly allocated across team members.
            c.	 My project has clearly defined objectives.
    18. Does your project team lack any required skill-sets?
    19. Please list and explain which skill-sets are lacking.
    20. Please indicate your level of agreement or disagreement with the following statements
        about quality control for your project:
            a.	 There are clear processes to ensure valid and reliable research results.
            b.	 My project follows these specified quality control processes.
    21. Please describe the quality control measures that are in place during your project work
        to ensure valid and reliable research results.
    22. Please indicate your level of agreement or disagreement with the following statements
        about the Research & Methodology peer review process and R&T field tests for your
        project:
            a.	 My team can meet the Research & Methodology peer review requirements.
            b.	 The Research & Methodology peer review process is a positive influence on my
                team.
            c.	 The Research & Methodology peer review process improves product quality.
            d.	 2020 R&T field tests are clearly defined.
            e.	 2020 R&T field tests are appropriate to answer my project’s research questions.




FINAL REPORT NO. OIG-14-003-A                                                                 22
U.S. DEPARTMENT OF COMMERCE                                     OFFICE OF INSPECTOR GENERAL

    23. What statement best describes the way your project uses results from the Census
        Program for Evaluations and Experiments (CPEX)?
            a. CPEX results are critical to my project’s success.
            b. CPEX results are informative to my project.
            c. My project does not use CPEX results because they are not relevant.
            d. My project does not use CPEX results because of quality concerns.
            e. Don’t know.
    24. Is your project’s success dependent on any other projects (R&T, GSS, CAD, etc.)?
    25. Please list the projects on which your project’s success depends.
    26. Are there any other projects that potentially duplicate your research efforts?
    27. Please list which other projects potentially duplicate your research efforts.
    28. Please provide any additional comments about your project or the R&T/GSS program.




FINAL REPORT NO. OIG-14-003-A                                                               23
U.S. DEPARTMENT OF COMMERCE                                                                 OFFICE OF INSPECTOR GENERAL


Appendix C: Detailed Project Information

      Table C-1. Status of R&T Projects for FYs 2012 and 2013, as of March 2013:
                  % of Activities Delayed Relative to January 2013 Baselines
                                                                                                      Status and Activity
                                                                                                      Delays (% of Total)
                                  Project and Objective
                                                                                                                   180
                                                                                                      30 Days
                                                                                                                  Days
Master Address File (MAF) Error Model Independent MAF Quality Assessment:
Develop a statistical model of errors in the MAF. Use the MAF error model to assess the quality           48               14
of the MAF and determine if and where targeted address canvassing would be effective.
Local Update of Census Addresses (LUCA) Program Improvement: Examine what
modifications to the bureau’s existing LUCA program will be required to support targeted                  69               0
address canvassing. Explore the use of administrative records to validate new addresses.
Automating Field Activities: Investigate how the bureau can effectively automate and
streamline field operations to take advantage of design changes and non-response follow-up data           48               44
collection modes.
Reducing and Improving In-Person, Follow-Up Operations: Research and test ways of
reducing the cost of in-person follow-up on cases sent to the field by finding ways to streamline         39               30
operations to promote efficiencies, while maintaining quality.
Optimizing Self-Response: Develop requirements of the Internet response option and
coordinate the relationship between different response modes (that is, Internet, paper,                   71               39
telephone). Determine Internet response option languages.
Workload Management Systems: Develop infrastructure to support the Internet response
                                                                                                          39               33
option.
Multiple Mode Interface Study: No project plan.                                                           Awaiting Initiation
Non-ID Processing: Evaluate methods to geocode non-ID cases in near real-time and ensure
                                                                                                          29               20
appropriate security measures are in place.
Coding, Editing, and Imputation Study: Examine administrative records and previous
                                                                                                          17               3
Census data as sources to obtain missing household and address information.
Enhancing Demographic Analysis: Use administrative records to increase the utility of
                                                                                                               Suspended
demographic analysis.
Improving Quality Control: Examine administrative records as a supplement and/or
                                                                                                          80               58
replacement to field work in quality control operations.
Administrative Records for Fitness of Use: Acquire, process, and analyze administrative
                                                                                                          79               15
records from federal, state, and private data sources to assess their utility for the 2020 Census.
Privacy and Confidentiality Study: Identify public perception and concerns about responding
                                                                                                           2               2
to the Census via the Internet and the use of administrative records for enumeration purposes.
Matching Process Improvement: Examine methods to improve matching for the 2020
                                                                                                          35               0
Census.
Contact Frame: Acquire and process administrative records for the purpose of using them for
                                                                                                          41               2
alternate contact information. Provide alternative contact methods, such as e-mail addresses.
Administrative Records Modeling: Research and test methods to replace or supplement
                                                                                                          46               33
NRFU data collected in person with administrative data.
Field Staff Training: Develop and recommend new, innovative and cost-effective field staff
                                                                                                      No scheduled activities as
training to improve the quality of training methods; and improve training efficiency through
                                                                                                      of March 2013
advanced training methods to obtain quality data at lower costs.
Logistics and Field Infrastructure Study: Develop field structure design alternatives to
                                                                                                      No scheduled activities as
support field operations and logistics systems to reduce field structure cost and improve logistics
                                                                                                      of March 2013
management to ensure timely, cost-effective delivery of materials.
Virtual Office Computing Environment (VOCE) and Field Office Test Bed: Develop                        No scheduled activities as
VOCE and supporting activities for local and remote users.                                            of March 2013

Source: Census Bureau information




FINAL REPORT NO. OIG-14-003-A                                                                                                   24
U.S. DEPARTMENT OF COMMERCE                                               OFFICE OF INSPECTOR GENERAL

   Table C-2. Status of Geographic Support System Projects for FYs 2012 & 2013:
                     % of Activities Delayed as of March 5, 2013
                                                                                 Status and Activity
                            Project and Objective                                Delays (% of Total)
                                                                                 30 Days    180 Days
Confidence, Analysis and Tracking Tool and Quality Indicators
(CATT/QI): Identify geographic areas that require address and spatial
feature update prioritization and geographic areas that are stable and have
                                                                                   40          1
accurate and complete address and feature coverage. Provide transparency
to customers, and bureau management. Report the quality of any census
tract so that each QI can be run as an independent algorithm within a larger
system.
MAF/TIGER Address Geocoding System (MTAG): Resolve address
                                                                                    3          0
range and cluster issues, and assign address ranges to linear features so the
MAF records without geocodes match TIGER.
Address and Point Evaluation: Develop a methodology to evaluate the
                                                                                    0          0
quality of acquired geospatial files to determine the usability of un-geocoded
residential records for spatial enhancement of address location in the MTdb.
Feature Source and Architecture Evaluation: Evaluate the quality of
feature source files received from GEO partners. Update the MTdb. Improve
the quality of source data used to update the MTdb. Improve the accuracy of         0          0
the MTdb road network base to improve address geocoding and ultimately
support the implementation of targeted address canvassing for the 2020
Census.
Problem Capture, Prioritization Tracking and Reporting Tool:
                                                                                   30          7
Enhance capabilities to recognize quality deficiencies in the MTdb's address
and geographic feature data.
GSS-I Workflow Control System: Control the flow of partner files for
use in updates to the MTdb, and provide partner feedback. Interface with the
                                                                                    3          0
CATT to determine which files should be acquired based on QI scores and
which should proceed toward MTdb updating. Update the MTdb and create
an ongoing partnership effort with local and tribal governments.
a iSimple: Help GEO staff detect problematic linear features that resulted

from spatial feature updates applied to the MTdb in preparation for the 2010       78         44
Census. Help GEO staff make critical decisions regarding targeted analysis
and linear feature processing.
 Source: Census Bureau information
 a
   Completed in phase 1.




FINAL REPORT NO. OIG-14-003-A                                                                      25
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL


Appendix D: Agency Comments





FINAL REPORT NO. OIG-14-003-A                           26
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-14-003-A                           27
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-14-003-A                           28
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-14-003-A                           29
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-14-003-A                           30
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-14-003-A                           31
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




32CENSU32152

FINAL REPORT NO. OIG-14-003-A                           32
